Audit Report




OIG-11-002
SAFETY AND SOUNDNESS: Failed Bank Review of First Federal
Bank of North Florida
October 15, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                             October 15, 2010


             OIG-11-002

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Susan L. Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of First Federal Bank of North Florida


             This memorandum presents the results of our review of the failure of First Federal
             Bank of North Florida (First Federal). First Federal was opened in 1922 and had a
             main office in Palatka, Florida, and six other offices located in Crescent City,
             Interlachen, St. Augustine, St. Augustine Beach, Hastings, and Welaka, Florida.
             The Office of Thrift Supervision (OTS) closed First Federal and appointed the
             Federal Deposit Insurance Corporation (FDIC) as receiver on April 16, 2010. As of
             December 31, 2009, the thrift had $393.9 million in total assets. FDIC estimated
             that the loss to the Deposit Insurance Fund is $6 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of First Federal that was limited to (1) ascertaining the
             grounds identified by OTS for appointing the FDIC as receiver and (2) determining
             whether any unusual circumstances exist that might warrant a more in-depth
             review of the loss. In performing our review we (1) examined documentation
             related to the appointment of FDIC as receiver, (2) reviewed OTS reports of
             examination for the 5-year period before the bank failure, and (3) interviewed OTS
             examination personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-002
Page 2

Causes of First Federal’s Failure
The primary causes of First Federal’s failure were its aggressive growth strategy
and excessive concentrations in higher-risk commercial real estate and land loans.
These conditions were exacerbated by the severe downturn in real estate values in
Florida, First Federal’s market. In addition, credit administration practices at the
bank were unsound. For example, First Federal was criticized by OTS in the 2007
and 2009 report of examinations for using stale dated financial reports during its
internal loan reviews. Furthermore, the internal loan reviews were also not being
performed timely or adequately, and were not being performed independently from
the originating loan officer. First Federal experienced rapid asset quality
deterioration beginning in 2007, resulting in significant increases in its problem
assets and loan losses. In turn, these loan losses significantly diminished earnings
and capital and, ultimately, led to First Federal’s failure.


Conclusion
Based on our review of the causes of First Federal’s failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the thrift’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth review of
the thrift’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of First Federal’s failure summarized
in this memorandum are consistent with the information contained in its reports of
examinations and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
Jai Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-11-002

       Attachment 1
Management Response
                                                   OIG-11-002

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
